                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 110030011                                                                       Page 1 of 1



         Our office was notified about discrepancies identified in monthly activity and expense reports
         submitted by a slJ.bawardee 1 for work performed under a grant2 • We reviewed the monthly
         activity reports and expense reports, as well as relevant emails. During the course ofthe
         investigation, the prime awardee3 and the sub awardee resolved the discrepancies. We issued a
         letter to the CO- pJ4 urging himlher to ensure all future reports submitted by the subawardee are
         accurate and complete.

                   Accordingly, this case is closed.




NSF 010 Form 2 (11102)
                                                                                                         I
                                                                                                         I
